No. 19-7

 

IN THE

Supreme Court of the United States

SEILA LAw LLC,
PETITIONER
Vv.

CONSUMER FINANCIAL PROTECTION BUREAU,
RESPONDENT

ON WRIT OF CERTIORARI TO THE UNITED STATES:
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR SEPARATION OF POWERS
SCHOLARS AS AMICI CURIAE IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,960 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 16, 2019.

I

Colin Casey Hog4n
Wilson-Epes Printing Co., Inc.

  
